<html>
<title> - THE GANG: 15 YEARS ON AND STILL SILENT</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 
113th Congress				    Printed for the use of the								 
2d Session                                  Commission on Security and Cooperation in Europe
  

                         THE GANG: 15 YEARS ON AND 
                                  STILL SILENT


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                

                           DECEMBER 17, 2014


                            Briefing of the
            Commission on Security and Cooperation in Europe
_________________________________________________________________________            

                            Washington: 2015
                                     

            Commission on Security and Cooperation in Europe

                     234 Ford House Office Building

                          Washington, DC 20515

                              202-225-1901

                          <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1b2a2b2b491bcb0b8bdffb9bea4a2b4ffb6bea7">[email&#160;protected]</a>

                          http://www.csce.gov

                      Legislative Branch Commissioners

                                ------
                                
                                
                                
                                
                                
                                
                 SENATE					HOUSE
    
                                                           
 BENJAMIN L. CARDIN, Maryland,		CHRISTOPHER SMITH, New Jersey,
  Chairman				 Co-Chairman	
        
 SHELDON WHITEHOUSE, Rhode Island	JOSEPH PITTS, Pennsylvania

TOM UDALL, New Mexico			ROBERT ADERHOLT, Alabama

JEANNE SHAHEEN, New Hampshire		PHIL GINGREY, Georgia

RICHARD BLUMENTHAL, Connecticut		MICHAEL BURGESS, Texas

ROGER WICKER, Mississippi		ALCEE HASTINGS, Florida

SAXBY CHAMBLISS, Georgia		LOUISE McINTOSH SLAUGHTER,
  					 New York

JOHN BOOZMAN, Arkansas			MIKE McINTYRE, North Carolina
					STEVE COHEN, Tennessee


                                  (ii)
                                     



           *         *         *         *         *     
     ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

The Helsinki process, formally titled the Conference on Security and 
Cooperation in Europe, traces its origin to the signing of the Helsinki 
Final Act in Finland on August 1, 1975, by the leaders of 33 European 
countries, the United States and Canada. As of January 1, 1995, the 
Helsinki process was renamed the Organization for Security and 
Cooperation in Europe (OSCE). The membership of the OSCE has expanded 
to 56 partici- pating States, reflecting the breakup of the Soviet 
Union, Czechoslovakia, and Yugoslavia.
The OSCE Secretariat is in Vienna, Austria, where weekly meetings of 
the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
Although the OSCE continues to engage in standard setting in the fields 
of military security, economic and environmental cooperation, and human 
rights and humanitarian concerns, the Organization is primarily focused 
on initiatives designed to prevent, manage and resolve conflict within 
and among the participating States. The Organization deploys numerous 
missions and field activities located in Southeastern and Eastern 
Europe, the Caucasus, and Central Asia. The website of the OSCE is: 
<www.osce.org>.


           *         *         *         *         *
       ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

The Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
The Commission consists of nine members from the United States Senate, 
nine members from the House of Representatives, and one member each 
from the Departments of State, Defense and Commerce. The positions of 
Chair and Co-Chair rotate between the Senate and House every two years, 
when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that 
reflect the views of Members of the Commission and/or its staff, and 
providing details about the activities of the Helsinki process and 
developments in OSCE participating States.
The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delega- 
tions to OSCE meetings. Members of the Commission have regular contact 
with 
parliamentarians, government officials, representatives of non-
governmental organiza- 
tions, and private individuals from participating States. The website 
of the Commission 
is: <www.csce.gov>.

                                 (iii)
  
                                     

                 THE GANG: 15 YEARS ON AND STILL SILENT

                                  ------------

                               December 17, 2014

                                   WITNESSES

                                                                   Page
Raisa Mikhailovskaya, Founder and Director, Belarusian Document Center.
                                                                      2
Irina Krasovskaya, Co-founder and President, We Remember Foundation....
                                                                      3

                                  PARTICIPANT

Orest Deychakiwsky, Policy Advisor, Commission on Security and 
Cooperation in Europe..................................................
                                                                      1

                                  (iv)


                 THE GANG: 15 YEARS ON AND STILL SILENT

                              ------------

                           December 17, 2014

Commission on Security and Cooperation in Europe
                                                         Washington, DC

    The briefing was held in HVC-201 United States Capitol Visitor 
Center, Washington D.C., Orest Deychakiwsky, Policy Advisor, CSCE, 
presiding.
    Mr. Deychakiwsky. Good afternoon.
    I'd like to welcome all of you here to tonight's event. We're very 
pleased to host this screening of the documentary, ``The Gang: 15 Years 
and Still Silent'', with the participation of Freedom House and The 
German Marshall Fund. This event would not be possible without these 
organizations, so I want to thank both of them at the outset, and for 
their tremendous work in promoting democracy and freedom and human 
rights in Belarus and beyond.
    It's important that we not forget about Belarus.
    Understandably, attention these days is focused on Ukraine. Indeed, 
what happens in Ukraine has tremendous implications for Belarus.
    But it's also important that we not lose sight of the nature of the 
Lukashenka regime and its human rights abuses, of which the 
disappearances of the four subjects of this film is perhaps the most 
egregious example.
    The Helsinki Commission, throughout the last two decades, has been 
vocal in condemning the Lukashenka regime for its human rights 
violations and is trying to support human rights and democracy there.
    We've often voiced our deep concerns about the fate of the four 
disappeared in commission hearings, briefings, press releases, 
resolutions and bills, most notably the three Belarus Democracy Acts 
authored by our co-chairman and presumably our incoming chairman, 
Representative Chris Smith.
    For example, the Belarus Democracy Act of 2006--and there have been 
three of them--states that, and I quote, ``the government of Belarus 
has failed to make a credible effort to solve the cases of disappeared 
opposition figures Yuri Zakharenka, Victor Hanchar, Anatoly Krasovsky, 
in 1999, and journalist Dmitri Zavadski in 2000, even though credible 
allegations and evidence exist linking top officials of the Lukashenka 
regime with those disappearances.''
    I want to emphasize that one of the conditions for the lifting of 
sanctions that are found in the Belarus Democracy Act is, and I quote, 
``a full accounting of the disappearances of these opposition leaders 
and journalist, and the prosecution of those individuals who are in any 
way responsible for their disappearances.'' With that, let me introduce 
our speakers.
    I'm very pleased to welcome the producer of the documentary, Ms. 
Raisa Mikhailovskaya, founder and director of Belarusian Documentation 
Center, which collects and analyzes legal evidence of human rights 
abuses under the Lukashenka regime.
    A lawyer by trade, Raisa has founded and led several organizations 
that provide legal aid, advocate for the release of political prisoners 
and fight for the civil rights of Belarusian citizens.
    In 2012, she became the first woman to be awarded the Knight of the 
Year title by the Defenders of the Fatherland, an organization named in 
honor of the disappeared Belarusian minister Yuri Zakharenka. And Ms. 
Mikhailovskaya founded and served as an editor in chief of the legal 
advocacy newspaper, Citizen and Law. ``The Gang'' is her second film 
production, which follows ``On the Forefront of Truth,'' a documentary 
about the Belarusian political prisoners.
    Dr. Irina Krasovskaya is the co-founder and president of the We 
Remember Foundation, which seeks justice for the politically oppressed 
in Belarus.
    Since the disappearance of her husband, Anatoly Krasovsky, in 1999, 
Irina's work has focused on human rights abuses and disappearances 
throughout Eastern Europe, Belarus, the Caucasus and other regions. 
This work has resulted in U.N. resolutions in support of accountability 
and justice in Belarus. She's also helped to create investigative 
bodies under the auspices of PACE, the Parliamentary Assembly of the 
Council of Europe, to look into missing person cases.
    Irina is a member of the steering committee of the International 
Coalition Against Enforced Disappearances, which played an important 
role in the adoption of the U.N. convention to protect all persons from 
enforced disappearances, and continues to work toward the ratification 
and implementation of the convention by all U.N. member states.
    Irina was named the White House Champion of Freedom in 2005.
    Prior to the screening, Ms. Mikhailovskaya will give a very brief 
introduction, to set the scene.
    Her interpreter will be Sofya Orloski of Freedom House, who has 
absolutely been instrumental in making this event happen.
    Following the film, Raisa and Irina will say a few words and then 
we'll open it up to Q&A.
    I'm supposed to say, too, that for anybody wanting to tweet, our 
handle is--and I lost it.
    Ms. Hope. It's @helsinkicomm.
    Mr. Deychakiwsky. @helsinkicomm, thank you very much.
    That's from our new communications director, Stacy Hope.
    OK, with that, we can proceed.
    Raisa.
    Ms. Mikhailovskaya (through interpreter). Thank you for coming to 
the premiere screening of the film. You are, so to speak, lucky, 
because you are the first ones to see it.
    After the screening, we are hoping to show the film to others and 
also in major European capitals. The goal is one and the same: to once 
again remind about the events that took place 15 years ago.
    Fifteen years ago, three opposition politicians and one journalist 
disappeared under unknown circumstances. Criminal cases were opened, 
investigations were opened, but over this time, neither the family 
members nor the public at large know who the perpetrators were, and 
they haven't been brought to justice.
    Fifteen years is a long time. It's long enough for a criminal case. 
It's also a long time for an individual's life. But, unfortunately, it 
was not enough time for the Belarusian government to give us an answer 
who was responsible for these crimes.
    Fifteen years was a period for a whole new generation of 
Belarusians to grow up, and most of these people have barely heard 
something about these cases, and they definitely don't know the 
details. Having heard something is one thing, but knowing for sure is 
totally different.
    To paraphrase one of the people who you will see in this film, we 
need to be constantly bothering, bothering, bothering these people, so 
that they don't forget.
    We didn't want to impose our subjective point of view to the 
viewer--onto the viewer. That's why the film is full of documents, it's 
full of photographic and literal evidence. It's full of interviews.
    Mr. Deychakiwsky. OK, then with that, I think we could proceed with 
the showing of the film.
    Now we'll hear from the producer of this very well done, very 
powerful documentary, Raisa Mikhailovskaya.
    Ms. Mikhailovskaya. Can we have a minute?
    Mr. Deychakiwsky. Sure. Okay. A little change of plans. We will 
start with Irina Krasovskaya.
    Ms. Krasovskaya. Thank you so much.
    Dear friends, dear colleagues, dear guests! Thank to everybody here 
who came to listen to our voice. These 15 years are very tragic and 
intolerable time for families. What did we do all those years to find 
truth and justice for our loved ones--and for ourselves? All those 
years we tried to use all possible legal instruments inside Belarus and 
outside, as well as public awareness campaign.
    List of our actions includes: Meetings with presidents and 
governments of many democratic countries; events with international 
Human Rights and Non-Governmental organizations; participation in 
hearings in many parliaments and in US congress; cooperation with such 
international institutions as the Parliamentary Assembly of the Council 
of Europe (PACE), the Organization for Security and Cooperation in 
Europe (OSCE), the Inter-Parliamentary union (IPU), the United Nations 
Working Group on Enforced and Involuntary Disappearances and UN Human 
Rights Committee. And it is only small part of our activity.
    Of course, inside Belarus with the help of our lawyers we tried to 
use legal procedure. We sent hundreds and hundreds of requests, demands 
and questions to the investigators and their supervisors. Mostly our 
petitions were rejected. The official answers for our requests were 
usually a combination of three phrases: ``Secrecy of investigations. 
There is no reason. It is not possible.''
    Once, in 2003, investigation was suspended and we were allowed to 
read the papers of investigation. We found a lot of interesting facts 
and contradictions in the case. Of course, we officially asked 
questions, and of course, we never got answers.
    Some of these questions are basic for solving the case. For 
instance:
    --For what purpose officials of Ministry of interior used the 
official execution gun which was withdrawn by them from prison number 1 
two times, which coincided with the dates of disappearances?
    --Why General Prosecutor did ordered from Russia special equipment 
and experienced staff to locate buried bodies?
    --Why the marks of car paint found at the place of abduction of 
Gonchar and Krasovsky was not compared with the car paint of main 
suspect colonel Pavlichenko? And many other questions.
    All this means that ``a proper investigation of the disappearances 
has not been carried out by Belarusian authorities''. As it was said in 
2004 Parliamentary Assembly of Council of Europe report, known as 
Pourgourides, report: ``. . . the information gathered by the 
rapporteur leads it to believe that steps were taken at the highest 
level of the state to actively cover up the true circumstances of the 
disappearances, and to suspect that senior officials of the state may 
themselves be involved in these disappearances''.
    In the report concluded and it is very important that ``. . . it 
hard to believe that the above could have taken place without the 
knowledge of the President''. It explains everything.
    We did not have success on local level. Could we use international 
legal mechanism for justice in cases of disappeared in Belarus? Yes. In 
reality only UN HRC. My daughter and I won the case against Belarus in 
UN HRC established under the International Covenant on Civil and 
Political Rights. In April 2012 The Human Rights Committee concluded 
that Belarus had violated its obligation to investigate properly and 
take appropriate remedial action regarding Mr. Krasovski's 
disappearance. HRC requested Belarus to provide the victims with an 
effective remedy, which should include a thorough and diligent 
investigation of the facts, the prosecution and punishment of the 
perpetrators, adequate information about the results of its inquiries, 
and adequate compensation to the authors.
    The Belarus response was that they do not recognize Committee's 
rules of procedure. This means that no one single judgment of UN HRC 
under ICCPR won by citizens against Belarus, all together 77 cases, was 
acted on by the Belarus state, even Belarus signed Optional protocol 
and has to fulfill their obligations.
    Where is the situation today?
    Today we still do not know what happened to our loved ones and 
where they buried. The perpetrators are not punished yet. Belarus is 
still not going toward democracy. But at least we have some 
achievements which help us to believe in future:
    --No more political disappearances occurred in Belarus after 2000;
    --My family won the case again Belarus in UNHRC. One day Belarus 
will fulfill this decision.
    --Those four high ranking officials suspected in organizing 
disappearances of political opponents were put on visa ban lists in EU, 
USA, Canada and many other countries in 2004. In 2006, Lukashenka was 
added to this sanctions list.
    --Many politicians and governments in the democratic world 
including US follow closely the situation in Belarus.
    What else can we do?
    Of course we will continue public awareness campaign. We rely on 
all of you, on journalists, politicians and people in Belarus. We 
collect and save documents which will help us in future when there will 
be political will to investigate the cases.
    We will ask again International institutes to push government of 
Belarus to fulfill the obligation they undertook.
    We will try to persuade the governments of US and EU countries do 
not warm up relationships on political level with Belarus until there 
are political prisoners and unsolved cases of disappearances.
    Thank you for your attention. Thank you very much for your support. 
And I am very happy we are here today.
    Mr. Deychakiwsky. Thanks, Irina.
    That's certainly a reminder to the international community too, 
that we must keep pushing for justice in these cases.
    Raisa.
    Ms. Mikhailovskaya. I'm also very grateful that you came today, and 
I'm grateful for your reaction.
    It is very important for us, as the creators of the film, to know 
how well you, the viewers, understood the idea, how well we 
communicated it to you.
    If something was unclear from the first time you saw the film, I 
wouldn't be surprised. It's, indeed, a very difficult--a lot of details 
here are hard to grasp. So if you'll come back and see the film over 
and over again, I'm very grateful for that.
    This was one of our purposes, to ignite this interest, so that 
people have the desire to learn more and more about the disappearances 
and the others.
    We had to begin with the events in 1996, from the mysterious death 
of former Vice Speaker Henadz Karpenka, and never assume that those 
deaths were by accident.
    We had to follow the events in the film chronologically because it 
was difficult to grasp all the events not only for the viewer, but also 
for us, as film producers. Fifteen years have passed, and people have 
moved on, and have moved to various parts of the world.
    We went to Germany to meet with Oleg Alkayev, a former head of the 
Detention Center Number 1, who told us about the execution gun. We also 
met with Mr. Wieck, who was heading the OSCE office in Minsk at the 
time and is very well aware of the background of these events.
    We also met there with Zakharanka's family, with his wife, his two 
daughters and two grandsons. And this little boy that you saw, he's 
very young and he has never seen his grandfather, and he knows about 
him only from photographs. He looks immensely like his grandfather.
    Dmitry Petrushkevich, former prosecutor, who is a very important 
witness in these cases, he currently lives here in the United States. 
Christos Pourgourides, who was a member of the Parliamentary Assembly 
of the Council of Europe, authored a memorandum back in the day.
    It was also difficult to track down information and people because 
a lot of those with the knowledge are scared. General Lopatik, who is 
the former head of the criminal police. The former prosecutor and the 
minister of the interior, is currently in Russia.
    It was also easy to work on this for me, because for all these 15 
years, I followed these cases very closely, I've known the members of 
their families, I'm a member of a public commission that has been 
raising awareness and investigating these cases, we have produced 
numerous awareness-raising materials and we've collected an enormous 
amount of legal evidence.
    As for members of the families of those who disappeared, many of 
them have told me that such a film is important. It has to exist. It's 
important not only for them, but also for Belarusian history so that 
the Belarusian people not forget that those who disappeared are 
prominent Belarusian citizens and they deserve a prominent place in the 
Belarusian history.
    More civilized societies have long developed effective legal 
mechanisms to protect citizens whose rights have been violated, and the 
rule of law prevails in such societies.
    Unfortunately, such mechanisms do not work in contemporary Belarus. 
The government's actions, the actions of the authorities look more like 
those of bandits rather than rule of law.
    Belarusian human rights defenders have been advocating on the issue 
of political disappearances over and over. We have been demanding a 
thorough and open investigation and bringing perpetrators to justice.
    I also would like for this film to have a sequel in which we will 
be able to tell what has happened, how the investigations were actually 
carried out and who was brought to justice in these heinous crimes.
    Thank you.
    Mr. Deychakiwsky. OK. Thank you very much.
    Now we could go to our Q&A session. Please come up to the mic. 
That's for the sake of the transcriber. Please identify yourself and 
ask your question or feel free to make a comment, as long as it's not 
too long.
    Please, Valery.
    Questioner. My name is Valery and I'm from the Human Rights 
organization Are you subjecting yourself to danger by producing this 
film, because the government they are the same people in power?
    Ms. Mikhailovskaya (through interpreter). You are not the first to 
ask this question. I don't know what to expect from the government. It 
would be reasonable to expect a thorough and transparent investigation 
and trial. Would they prosecute me? For what? For telling the truth? I 
don't know.
    This has been the furthest attempt to show the highest people in 
the Belarusian government are implicated in those crimes. So the 
authorities in this case actually have to prove that they're not. If 
there is documentary evidence proving that they have not been 
implicated, they should uncover those documents and present them to the 
public.
    Questioner. The problem of the political disappearance entered into 
my life on September 17, 1999. I then worked in the Ministry of Foreign 
Affairs in Belarus and was a U.S. desk officer.
    I had a working meeting with a representative from the U.S. 
Embassy. And they were the first to tell me that the two active 
opposition figures disappeared on the eve.
    That was a new stage in the history of Belarus.
    In two years, after presidential elections of 2001, when 
Lukashenka, again, won in his elections, I went to the OSCE human 
dimension meeting in Warsaw. And for the first time, I saw Irina 
Krasovskaya and they were speaking about this problem. I was deeply 
impressed on a personal level with their passion, with the way they 
presented their case, and with the reaction of the audience. Everyone 
was deeply moved by what Irina Krasovskaya told about the 
disappearances.
    In so such a way I became deeply involved and involved on a 
personal level in these cases.
    There has been much to do. Many of the diplomats, the minister of 
foreign affairs the embassy of Belarus to the United States, people in 
Europe--they care about this. Not many people can do much about this.
    However, 15 years later, what we see is that those in the outside, 
in the United States and in Europe, European Union, people start 
forgetting about those cases. And it seems that people's memories are 
fading. Some people are questioning why the relations with Belarus are 
so bad now. Like, what is the reason? They are young. Lukashenka is 
maybe misunderstood. He's a good guy.
    People seem to forget very simple, very concrete fact that 
egregious crimes were committed by Lukashenka and his regime. Those 
were the most serious crimes.
    But remarkably, in the time there were so many people capable of 
running the state, but now there are so few who can compete with 
Lukashenka, who can actually take a stand at the helm on the state.
    Somehow, this competition is gone, and now Lukashenka is the only 
one, as many people think, who can do the job. Which is absurd. I mean, 
in 20 years, there's no one else coming. Because people disappeared, 
people have to leave the country, people stayed behind the bars.
    To conclude my comment, I would like to ask a question. What, in 
your opinion, should United States and European Union do this? Because 
there were no answers in the cases. There was systemic approach to 
political opposition in Belarus and it will continue to stay the same 
way.
    Thank you.
    Ms. Mikhailovskaya. My hope is that this time is dedicated to 
meeting with people and brainstorming, coming up with suggestions what 
the United States could do to keep this issue on their agenda.
    Unfortunately, the cyclical nature of the socio-political situation 
in Belarus that followed the presidential election cycle is very 
apparent, and right now, we're witnessing a warming up in the relations 
between Belarus and the West. Foreign Minister Makei is welcomed in all 
European countries. There was an interagency visit from the United 
States to Belarus. Unfortunately, political prisoners are becoming 
forgotten. Most of the presidential candidates who have been imprisoned 
after the last elections have come out of jail for--with the exception 
of one. And it looks like time heals and diplomats have very short 
memory.
    This is one of our purposes as human rights defenders--to 
constantly remind and also to warn representatives of other countries 
so that they could then make use of all the mechanisms at their 
disposal and pressure governments like Belarus.
    Ms. Krasovskaya. United States was always very helpful in our cases 
of disappearances and also in supporting human rights in Belarus. So 
from beginning, United States was the first country which suggested 
help in investigation of disappearances. And those strong resolutions 
on Belarus and cases on disappearances released by OSCE and other 
international institutes were made with the support of US Belarus 
Democracy Act of 2004--is a greatest support for democratic community 
in Belarus.
    Also, we have to thank US government for their strong statement on 
15th anniversary of disappearances Gonchar and Krasovski.
    But we have to remind US and EU countries--and this film is a good 
opportunity for that--that Belarus is still dictatorship, and there 
should not be cooperation with Lukashenka until we have political 
prisoners, including Nikalai Statkevich- candidate for Presidency--and 
unsolved cases of disappearances.
    Mr. Deychakiwsky. I couldn't put it any better. Clearly, we do--I 
see my State Department colleagues and friends here. Obviously, we need 
to be careful in terms of our policies towards Belarus not to act 
prematurely, not to go overboard, to take a very calibrated, measured 
approach in how we deal with the Lukashenka regime.
    We certainly--and that was one reason in my introduction I wanted 
to point out that one of the conditions for not lifting the sanctions 
found in the Belarus Democracy Act was. So we need to proceed 
carefully.
    You mentioned the interagency visit. I thought that it was very 
good that it also included Tom Melia from DRL--Democracy, Human Rights 
and Labor--because that definitely sent a signal to the people they met 
with in Belarus that human rights and democracy is by no means off the 
table.
    I'll leave it at that for now.
    Thank you for your work, and thank you for the film.
    Questioner. I'll speak in English, and then if you want, I can 
reproduce it in Russian too. First of all, thank you so much for the 
enormous work, your dedication and the strength that you demonstrate to 
the whole world. It is impossible to overestimate the amount of work 
you've invested, the amount of emotions you've invested into this 
movie, into similar projects.
    Second, I did have two questions to--for Raisa and also for Irina.
    Raisa, you were asked about the fear and the potential for the 
government actions towards yourself and your colleagues, and you made a 
joke of it. But have you experienced political prisoners in Belarus? I 
can assure you all that the work that Raisa and her colleagues do can 
result in very serious consequences. So thank you for your bravery.
    Second, Raisa, can you speak about the support on international 
level while preparing the movie. Was it difficult for you?
    Second part of the question. Is it true that you're planning to 
organize a screening in Minsk? Again, those who have been in Minsk know 
that this is impossible--to organize and handle without arrest, without 
very serious consequences. Do you have any partners to rely on? What is 
your stance and position on that? Belarus does not recognize the 
decision of the U.N. Committee on Human Rights anymore. They have sent 
their official note to the U.N. committee stating that they do not 
recognize the decision, which is direct violation of the protocols that 
they signed and their responsibilities under the covenant of civil and 
political rights, which results in international instruments who seek 
justice for Belarusians.
    To Irina, what do you think international community should be doing 
in this regard? Should this question be raised on international level 
in the light of the upcoming elections, in the light of the changes in 
international policy towards Belarus?
    Thank you so much.
    Ms. Mikhailovskaya (through translator). Thank you for your 
questions.
    It took us two years from--about two years from when we had the 
idea for the film till now till presenting it to you.
    I actually originally wanted to have this film released by May 7th, 
which is the anniversary of Yuri Zakharenka's disappearance. I have 
sought assistance from several foundations, and only the third 
foundation that I talked to responded favorably.
    The application process took a while, and maybe I should've applied 
to 10 places simultaneously, but I was so sure that the subject was so 
important that I would hear back positively actually immediately from 
the first place that I went to.
    I got a response from one place, but I just missed the deadline, 
essentially. Another funder that I went to said that, ``We don't see 
the outcome. We just don't see it how it will be useful.''
    Professionally, we haven't seen the results and outcomes for 15 
years, either. So I'm very grateful to the German Marshall Fund that 
they believed in us and supported us in producing this film.
    As to how to show this film in Belarus, I think I have an idea of 
how to do it. But I also want to first show this film in as many 
European capitals as possible, so as that the citizens of those 
countries that can act on the international level to pressure the 
Belarusian government are aware of these facts.
    Even if we are not able to show it openly in Belarus, we will put 
it online in open access. And Internet penetration in Belarus is pretty 
high right now, so I'm pretty sure that people will be able to see it 
online at some point.
    Ms. Krasovskaya. As you know there is no justice in Belarus on 
cases of enforced disappearances. In additional to UN Human Rights 
Committee we also can use the procedure of Universal Jurisdiction. We 
are working on this in order to prepare the cases against perpetrators; 
even we cannot use it now. But you never know what will happen in 
future.
    For those 77 cases won by people against Belarus we have to put 
more pressure on UN Followed up Committee of Human Rights Committee. It 
is their jurisdiction to punish countries which did not fulfill their 
decisions. As I was informed there were created organization which 
united people from this list of 77 cases. Maybe voice of organization 
will be heard better then voices of individuals.
    Questioner. Thank you.
    Ms. Krasovskaya. Thank you.
    Questioner. OK, great. My name's Matthew Gunman. I'm a returning 
Peace Corps volunteer from Ukraine. And first of all, I wanted to start 
out by saying I really admire what you have done here. I actually was 
listening to a podcast yesterday on NPR about bravery and people 
standing up for what they believe in when everyone else is being 
silent. That's the perfect example of that. So I commend you. Second of 
all, today President Obama announced that there would be renewed 
relations with Cuba for the first time in 50 years, another dictator 
state, like Belarus.
    My question is if President Obama were to continue warmer relations 
with Belarus, Irina and Raisa, you've already suggested that this would 
be bad because it suggests, ``Well, abuse of human rights is OK. We 
will still work with you.''
    My question is could warming relations with Belarus actually have a 
positive outcome in some ways?
    Ms. Mikhailovskaya (through interpreter). While the positive 
effects are possible, but I would see them more on the humanitarian 
side: working on social issues, medicine, medical issues and improving 
medical assistance, helping promote rights of people with 
disabilities--that sort of stuff such as local governance.
    So promoting democracy through those elements, but without, kind 
of, establishing this brotherly, friendly relationship with Lukashenka 
that he may take as an opportunity for him to guarantee preferential 
treatment in terms of international economy and otherwise strengthen 
his own regime.
    If this warming relationship were to happen, I would rather see it 
on the humanitarian issues.
    Ms. Krasovskaya. I think that today warming up relationship between 
Belarus and the United States on political level not possible, because 
there is no trust between the countries today and the issues on which 
sanctions were imposed still on the same level. To renew the 
relationships with US Belarus has to--first--release all political 
prisoners, which is easy to do. The second--cases of disappearances 
have to be investigated, which authority is not going to do now because 
high ranking official are involved in this crime. The third condition 
is free and fair election--which also did not improve recently. So 
relationships between US and Belarus could be successful on students 
programs, visa issues, cultural projects but not on political level 
cooperation.
    Hope that United States will not try to warm up relations with 
Belarus without insisting on fulfilling those conditions.
    Also, I personally met with President Bush three times. And he knew 
where Belarus is. I'm not sure about President Obama and his view on 
Belarus; I have never heard that he met human rights activists from 
Belarus.
    Questioner. For the people of Belarus, do you feel that--studying 
the revolutions that took place in Eastern Europe from '89 to '91. Do 
you feel that there are some similarities that you could draw on from 
Ceausescu or Milosevic?
    Lukashenka's crimes aren't as extensive as theirs. So I see 
similarities there. And I'm just wondering if you've had any 
cooperation people in Romania or Czech Republic.
    Questioner. Here in Washington, D.C., we advocate for the freedom 
and democracy in Belarus and put additional pressure on Lukashenko.
    They have been very active for a number of years. And have been 
part of all of these efforts for many years already.
    It's hard to say if dictators in the other countries. It can be 
helpful in doing this, but the situation in all the other countries is 
unique. And what you have in Belarus is unique as well.
    Efforts of the government and the government may expend the effort 
to remain in power. I mean, Lukashenka himself and his bosses.
    Cooperation here in Washington and Lukashenka and with the support 
of Russia he's really strong.
    There are limitations on what the Western governments can do. They 
have to follow the rules of international law.
    Mr. Deychakiwsky. Do you want to follow up? Please come to the mike 
for the sake of the transcriber.
    Questioner. A follow-up to that, as I understand, from the Western 
powers in Belarus that there would be somewhat a strong international 
legal and military (ph) way to deal with them. It seems to be that, 
when you compare to North Korea, that's a pretty--that's a pretty 
serious accusation. It seems to me like you've got a serious effort.
    Questioner. Well it takes the decision of the Security Council of 
the United Nations to send a person like Lukashenka to the 
International Criminal Court. And with Russia being a permanent member 
of the United Nations Security Council, it is not feasible. It's not 
realistic at the moment.
    These days when--this Ukrainian war, it has overshadowed every 
concern in those. Lukashenka suddenly became not so bad, and on the 
continent, he suddenly became a little bit better than Putin, for 
example. And this urge to reinstall relations with him.
    It is very concerning the lessons from previous years are being 
overlooked at this point in time.
    Mr. Deychakiwsky. OK, thanks.
    I think that concern is legitimate. But, based on what I see, I 
don't see that that urge necessarily is that strong. And I think this 
film reminds us why the urge shouldn't be that strong.
    I think we need to wrap it up here.
    I want to thank again Freedom House and GMF.
    I want to thank both Raisa and Irina, Raisa for a truly powerful, 
detailed, outstanding film, and both of you for your noble work.
    Thank you all for coming.

                                   
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
